TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Weaknesses in the Criminal Investigation
                   Function’s Controls Leave Investigative
                       Equipment Vulnerable to Loss



                                         September 2005

                              Reference Number: 2005-10-163




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 30, 2005


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION



 FROM:                         Pamela J. Gardiner
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Weaknesses in the Criminal Investigation
                               Function’s Controls Leave Investigative Equipment Vulnerable to Loss
                               (Audit # 200410037)

 This report presents the results of our review to determine whether controls and procedures are
 effective in ensuring investigative equipment is adequately safeguarded against waste and loss.

 Synopsis
 In response to our request for suggestions for Fiscal Year (FY) 2004 audit coverage, the former
 Chief, Criminal Investigation (CI), cited controls over equipment as a management concern
 because budget shortfalls resulted in a lack of support staff in the field office locations.
 According to documentation provided by the CI function, the number of nonspecial agents
 assigned to the field offices declined from 672 in FY 1999 to 589 in FY 2004.
 The CI function uses various types of investigative equipment1 to accomplish its mission, such as
 radio communication equipment, electronic surveillance equipment, and firearms. All
 investigative equipment valued at $500 or more is required to be entered into the CI function’s
 inventory control system. Firearms, pocket commissions,2 enforcement badges, and belt badges
 are required to be entered regardless of cost.



 1
   Investigative equipment is defined as equipment required by the CI function for carrying out its investigative and
 enforcement responsibilities.
 2
   Pocket commissions are special agent identification media consisting of a photograph and a sequentially numbered
 certification for authority.
                   Weaknesses in the Criminal Investigation Function’s Controls
                       Leave Investigative Equipment Vulnerable to Loss



Our review determined weak internal controls within the CI function have created an
environment susceptible to the loss of investigative equipment. We could not locate or find
support for 70 of the 700 investigative equipment items selected for review. In addition to our
review, the CI function Headquarters (HQ) office and 1 of the field offices in our review
wrote off, or were prepared to write off as lost, 429 items (with an acquisition cost exceeding
$1.3 million) during FYs 2004 and 2005. We identified several conditions that resulted in a
weak control environment over investigative equipment that contributed to the loss of
equipment. Specifically, the CI function did not effectively conduct the annual physical
verifications, exercise proper separation of duties, maintain complete documentation to support
equipment disposal transactions, and properly control equipment loaned by the CI function HQ
office.
In addition, badges and sequentially numbered pocket commission inserts purchased by the
CI function were not properly controlled, resulting in unreliable data and missing pocket
commissions. Our review identified 2,850 pocket commissions that were not properly controlled
on the Criminal Investigation Equipment Control System (CIECS),3 resulting in the CI function
being unable to locate 111 pocket commissions. We also identified numerous enforcement and
belt badges that have the same identification number. This weakens the CI function’s ability to
account for these items. The CI function must improve the control of its identification media to
prevent the loss or theft of pocket commissions and badges. In the hands of an unauthorized
person, these items could not only bring discredit and adverse publicity to the Internal Revenue
Service (IRS) but could also be damaging to our nation’s homeland security.
Further, the CIECS did not contain accurate or complete information. We determined the
investigative equipment we physically verified contained inaccurate information on the CIECS;
investigative equipment identified during our review, as well as equipment purchased during
FY 2003, was not recorded on the system; and the CIECS contained duplicate records and
records where the serial numbers were altered.
We also reviewed the physical security controls at the four offices in our review and identified
weaknesses that left equipment vulnerable to theft or loss. For instance, we identified that
combinations to the firearms safes and vaults were not changed for at least 1 year, custody
receipts were not maintained for keys allowing access to investigative equipment storage areas,
and access to equipment storage areas was not restricted. In addition, the environment for
storing equipment at the CI function’s HQ offsite warehouse is of concern. We believe the
disarray observed at this facility, and the current procedure for relying on one’s memory for
recalling where equipment is located, contributed to the loss of investigative equipment.



3
  The CIECS is a standardized nationwide online investigative equipment inventory system that allows management
to track where its investigative equipment and accessories are located, to track to whom it is assigned, and to
generate reports. It also tracks equipment loaned outside of the CI function and the disposal of equipment.
                                                                                                              2
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



The CI function is responsible for controlling over 40,000 investigative equipment items costing
approximately $128 million. Unless CI function management takes action to improve the
controls and procedures over its equipment, they will continue to be at risk of losing control of
more investigative equipment.

Recommendations
To improve the internal controls over investigative equipment, we recommended the Chief, CI,
issue a memorandum to applicable CI function personnel reemphasizing the importance of an
independent verification of all equipment during the annual inventory process, properly
segregating investigative equipment duties, and maintaining supporting documentation for
disposed items. To ensure the annual inventory of investigative equipment was properly
conducted, we recommended the Chief, CI, establish procedures requiring each office to submit
the primary reconciliation document used during the inventory process along with the
memorandum to the Director, Equipment and Technology Evaluation, and require each office
attach a document listing the personnel that conducted the inventory verifications.
We also recommended procedures be established to periodically review the permissions of those
personnel with access to the investigative equipment control system to ensure proper separation
of duties. To ensure each disposal of equipment was properly conducted, we recommended
monitoring procedures be established requiring the review of supporting documentation.
Further, we recommended the Chief, CI, assess the viability of using bar coding nationwide to
control investigative equipment that is conducive to such a process.
In addition, we recommended the Chief, CI, ensure all pocket commissions are properly
controlled on the inventory system, as well as ensure all missing pocket commissions are
properly referred to the Treasury Inspector General for Tax Administration (TIGTA), Office of
Investigations. We also recommended the Chief, CI, determine if the current supply of belt and
enforcement badges is sufficient to provide each special agent with a unique belt and
enforcement badge identification number.
To improve the accuracy and completeness of the CI function’s equipment control system, we
recommended the Chief, CI, establish procedures to ensure all investigative equipment
purchased is properly controlled. We also recommended procedures be established to ensure
changes to serial number information are appropriate and to resolve all instances where the serial
numbers were altered based on information provided by the TIGTA during this review. In
addition, we recommended the Chief, CI, establish procedures to identify duplicate records in the
control system.
To ensure physical security controls adequately safeguard investigative equipment from theft or
loss, we recommended the Chief, CI, establish procedures to ensure functional security reviews
of equipment storage areas are conducted annually. We also recommended restricting access to

                                                                                                  3
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



investigative equipment storage areas to only those personnel responsible for maintaining the
equipment. Finally, we recommended the Chief, CI, establish procedures, such as incorporating
a layout or schema, to ensure investigative equipment assigned to the CI function HQ offsite
warehouse is effectively stored.

Response
Because the CI function is committed to perfecting its internal controls, it will convene an
Investigative Equipment Control work group comprised of HQ and field personnel. The work
group will conduct a thorough review of the CI function’s equipment inventory control system
and formulate detailed recommendations for improvement. The Chief, CI, concurred with all the
recommendations in this report. Specifically, the Chief, CI, through the Director, Equipment and
Technology Evaluation, will:
       •   Issue a detailed memorandum clarifying the inventory system and the roles and
           responsibilities of all CI function employees. Additional guidance will also be
           provided to all CI function managers.
       •   Revise the Property Management Handbook to require reconciliation documentation
           upon completion of the annual inventory.
       •   Determine the specifications for bar coding investigative equipment nationwide.
       •   Determine the appropriate levels of access for CIMIS users and how frequently these
           permissions are reviewed.
       •   Ensure all reports of survey and supporting documentation are reviewed for
           completeness and accuracy.
       •   Issue new pocket commissions and destroy and document those that were previously
           issued; ensure all missing pocket commissions are referred to the TIGTA, Office of
           Investigations; and issue uniquely serial-numbered enforcement and belt badges as
           necessary to prevent duplicates.
       •   Evaluate current procedures for controlling equipment purchases and recommend
           necessary enhancements.
       •   Resolve previously identified discrepancies where serial numbers were changed and
           review and recommend appropriate policy and procedural changes.
       •   Create a report to identify records with exactly matching duplicate serial numbers and
           determine who will review the report and how often it will be reviewed.
       •   Ensure functional security reviews of investigative equipment and firearms storage
           areas are conducted annually.
                                                                                                4
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



       •   Emphasize restricting access to investigative equipment areas to only necessary
           personnel.
       •   Review the operations of the warehouse facility and make necessary
           recommendations to ensure implementation of a sound and secure inventory tracking
           system for all investigative equipment stored at that facility.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                              5
                       Weaknesses in the Criminal Investigation Function’s Controls
                           Leave Investigative Equipment Vulnerable to Loss




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Weak Internal Controls Have Created an Environment
          Susceptible to the Loss of Investigative Equipment .....................................Page 4
                    Recommendation 1:........................................................Page 11

                    Recommendations 2 through 5: ........................................Page 12

          Badges and Pocket Commission Inserts Purchased by the Criminal
          Investigation Function Are Not Properly Controlled, Resulting in
          Unreliable Data and Missing Pocket Commissions......................................Page 13
                    Recommendations 6 through 8:.........................................Page 15

          The Criminal Investigation Equipment Control System
          Was Inaccurate and Incomplete ....................................................................Page 16
                    Recommendations 9 through 12: .......................................Page 20

          Physical Security Controls Need to Be Improved to
          Reduce the Risk of Unauthorized and/or Undetected
          Access to Investigative Equipment...............................................................Page 21
                    Recommendations 13 through 15: .....................................Page 23


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 25
          Appendix II – Major Contributors to This Report ........................................Page 28
          Appendix III – Report Distribution List .......................................................Page 29
          Appendix IV – Outcome Measures...............................................................Page 30
          Appendix V – Management’s Response to the Draft Report .......................Page 34
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss




                                             Background

The Criminal Investigation (CI) function’s primary mission is to serve the American public by
investigating potential criminal violations of the Internal Revenue Code and related financial
crimes in a manner that fosters confidence in the tax system and compliance with the law.
To accomplish their mission, CI function special agents use various types of investigative
equipment1 including, but not limited to, fleet vehicles, radio communication equipment,
firearms, body armor, electronic surveillance equipment, night vision equipment, and optical
equipment. Accessories and supplies used by CI function special agents include pagers, cellular
telephones, binoculars, camera lenses, tape recorders, and transcribers.
The Office of Management and Budget Management’s Responsibility for Internal Control,
Circular A-123, requires that a management control system provide management with reasonable
assurance that assets are safeguarded against waste, loss, unauthorized use, and
misappropriation.
According to the Internal Revenue Manual (IRM), investigative equipment and investigative
accessories and supplies valued at $500 or more will be entered into the Criminal Investigation
Equipment Control System (CIECS).2 Those items valued less than $500 are considered
disposable items and are not entered. The exceptions are firearms, pocket commissions,3
enforcement badges, and belt badges.
Table 1 represents the total assets and total asset acquisition cost for the investigative equipment
categories recorded in the CIECS as of September 30, 2004.




1
  Investigative equipment is defined as equipment required by the CI function for carrying out its investigative and
enforcement responsibilities.
2
  The CIECS is a standardized nationwide online investigative equipment inventory system that allows management
to track where its investigative equipment and accessories are located, to track to whom it is assigned, and to
generate reports. It also tracks equipment loaned outside of the CI function and the disposal of equipment.
3
  Pocket commissions are special agent identification media consisting of a photograph and sequentially numbered
certification for authority.

                                                                                                           Page 1
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss



                          Table 1: CI Function Investigative Equipment
                            (in descending order of acquisition cost)

                                                                Number of
                         Category Description                     Items          Acquisition Cost
               Motor Vehicle                                          3,021           $62,828,053
               Radio                                                 10,210           $37,040,290
               Audio                                                  3,076             $7,292,257
               Video                                                  3,044             $6,705,194
               Firearms                                               7,573             $3,848,540
               Miscellaneous Investigative Equipment4                12,756             $3,775,697
               Telecommunication                                        479             $1,661,721
               Training                                                 462             $1,653,540
               Photographic                                           1,149             $1,113,448
               Microfilm                                                266               $716,998
               Optical                                                  221               $710,300
               Tracking                                                 150               $585,975
               Shop                                                      27                $92,396
                                  Totals                              42,434           $128,024,409


              Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of the CIECS.

During our review, the CI function migrated the CIECS to an upgraded Criminal Investigation
Management Information System (CIMIS)5 on April 11, 2005. The CIMIS upgrade was
designed to integrate various CI function management information systems, including
investigative equipment. We used data from the CIECS as of September 30, 2004, for sample
selection and data as of February 3, 2005, during our follow-up testing.
In response to our request for suggestions for Fiscal Year (FY) 2004 audit coverage, the former
Chief, CI, cited controls over equipment as a management concern because budget shortfalls
resulted in a lack of support staff in the field office locations. According to documentation
provided by the CI function, the number of nonspecial agents assigned to the field offices
declined from 672 in FY 1999 to 589 in FY 2004 (a 12 percent decrease).
This review was performed at the CI function Headquarters (HQ) offices in Washington, D.C.;
Chicago, Illinois; and Forestville, Maryland,6 and the CI function field offices located in


4
  This category includes enforcement and belt badges, pocket commissions, motion detectors, and fingerprint kits.
5
  The CIMIS is a database that tracks the status and progress of criminal investigations and the time expended by
special agents. It is also used by management to provide the basis for decisions of both local and national scope.
6
  We performed fieldwork at these three offices within the HQ office. Unless otherwise noted, references made in
this report to the HQ office reflect the results of our fieldwork at these three offices.

                                                                                                           Page 2
                Weaknesses in the Criminal Investigation Function’s Controls
                    Leave Investigative Equipment Vulnerable to Loss



Chicago, Illinois; Houston, Texas; and Los Angeles, California, during the period
November 2004 through June 2005. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                     Page 3
                   Weaknesses in the Criminal Investigation Function’s Controls
                       Leave Investigative Equipment Vulnerable to Loss




                                    Results of Review

Weak Internal Controls Have Created an Environment Susceptible to
the Loss of Investigative Equipment

We randomly selected 700 investigative equipment items to verify, including 125 firearms, at the
CI function HQ office7 and 3 field offices. We could not locate or find support for 70 of these
items and could not positively identify an additional 9 items. Also, during FYs 2004 and 2005,
the CI function HQ office and 1 of the field offices wrote off, or were prepared to write off as
lost, 429 items with an acquisition cost exceeding $1.3 million. This occurred because weak
internal controls have created an environment susceptible to the loss of investigative equipment.

Results of physical verification

We conducted a physical verification of a sample of investigative equipment,8 excluding
vehicles, recorded on the CIECS as active equipment as of September 30, 2004.
Table 2 illustrates the results of our physical verification, including the total population and
sample size of equipment included in our review.




7
 We selected equipment assigned to the Equipment and Technology Evaluation section.
8
 We selected equipment from the following categories on the CIECS: Firearms (Category Number 10), Audio (20),
Video (21), Photographic (23), Telecommunication (25), Optical (26), Radio (60), Tracking (70), and select
subcategories from Miscellaneous Investigative Equipment (28).

                                                                                                    Page 4
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss



                  Table 2: Results of Investigative Equipment Verification


                                             Investigative Equipment &
                                                      Firearms
                       Audit Results                                             Totals
                                             HQ Office        Field Offices

                     Population Size9           4,371             3,476          7,847

                     Sample Size10               250               450            700

                     Items Verified              217               404            621

                     Items Not Verified           32               3811            70

                     Could Not                    1                 8              9
                     Determine12

                    Source: TIGTA analysis of the CIECS and results of review.

The 70 items we could not verify had an acquisition cost of $241,71813 and were purchased by
the CI function between January 1983 and April 2003. These items included mobile and
portable radios, video equipment, photographic equipment, and secured fax machines. The loss
of sensitive investigative equipment, such as radios, could compromise ongoing investigations
by allowing an unauthorized individual access to listen to radio transmissions. Also included in
the 70 items were 9 repeaters, duplexers, and base stations installed in remote locations such as
mountain tops and roof tops. Even though CI function personnel at the field offices indicated
these items would be impractical to verify, they were unable to provide any evidence to support
the items existed.




9
  This reflects the population of investigative equipment and firearms that we selected our samples from for the
offices in our review.
10
   A sample of 125 firearms (50 – HQ, 75 – field) was selected for verification. All 125 were verified during our
review.
11
   According to CI function field office personnel, this included one item that was stolen during 2003. The office
provided the memorandum prepared by the employee noting the loss; however, a Report of Survey (Form 1933) was
not prepared, as required.
12
   We could not verify these items because the serial numbers were not visible or not found on the equipment. This
included items installed in a surveillance van.
13
   This figure was based upon the best available information we had at the time of our review and does not account
for depreciation.

                                                                                                         Page 5
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss




Investigative equipment previously lost by the CI function

The CI function HQ offices wrote off 224 items as lost during February 2004. These items, with
an acquisition cost of about $594,376,14 included enforcement badges, radios, and video
equipment. Over 70 percent of these items (158 of 224) were assigned to the CI function HQ
offsite warehouse. In addition, the CI function HQ office was preparing to write off an
additional 73 items during FY 2005, as a result of the FY 2004 inventory. These items, with an
acquisition cost of about $297,288, included secured fax machines, radios, and 1 belt badge;
almost all (72 of the 73) were assigned to the offsite warehouse. According to CI function
management, the write off of equipment occurred because these items could not be located
during the last several annual inventories. They advised this was an effort to clean up the CIECS
and not a regular practice. While we understand that it may be necessary to write off equipment
from time to time, this practice should not become routine.
Further, 1 of the field offices in our review wrote off 68 items during February 2005. These
items, with an acquisition cost of approximately $145,400,15 included audio and video
equipment. According to the report of survey prepared at that office, the items were either lost,
damaged, stolen, or excessed without proper supporting documentation. In December 2004, that
same office also wrote off 64 dual-band radios costing about $286,500.16 The office theorized
these items were transferred by the prior investigative technical agent17 to the Drug Enforcement
Administration (DEA).18 According to documentation provided by the CI function, neither the
IRS nor the DEA could locate these radios after a search of their locations.

Internal control weaknesses contributed to lost investigative equipment

We attribute the conditions described above to a weak control environment over investigative
equipment. Specifically, our review showed the CI function did not:
     •   Effectively conduct the annual physical verifications.
     •   Exercise proper separation of duties.



14
   The CI function HQ office estimated the loss at $286,441, after the items were depreciated.
15
   The field office asserted that these items had a remaining value of approximately $6,000.
16
   The field office asserted that these items had no remaining value.
17
   The CI special agent that is responsible for maintaining investigative equipment at the field offices.
18
   The prior technical investigative agent at that office resigned during FY 2004. The TIGTA Office of
Investigations, in conducting a related investigation, disclosed that 60 excessed dual-band radios designated to be
given to the DEA were missing. The disposal of these radios was under the supervision of that agent. Eventually a
total of 64 radios were disposed of as lost.

                                                                                                           Page 6
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss



     •   Maintain complete documentation to support equipment disposal transactions.
     •   Properly control equipment loaned by the CI function HQ office.
The CI function did not effectively conduct the annual physical verifications
According to the CI function’s Property Management Guidelines, each office is required to
conduct an annual physical inventory of investigative equipment by the end of the fiscal year.
This inventory should not only include verifying all equipment recorded on the CIECS but also
account for those items in an office’s possession that meet the CIECS reporting criteria. The
CIECS coordinator and backup coordinators19 are prohibited from participating in the inventory
verification, to maintain proper separation of duties.
At the conclusion of the physical inventory, each office should send a memorandum outlining
the results to the Director, Equipment and Technology Evaluation (ETE). The memorandum
should note that 100 percent of all equipment was inventoried and should include an attachment
listing all items that were reported as lost or stolen with the proper supporting documentation.
We reviewed the inventory procedures at four CI function offices and determined the offices did
not always properly conduct the physical inventories.
     •   One of the offices had not completed its FY 2004 physical inventory at the time of our
         review. Personnel from that office indicated they received an extension; however, the
         CI function HQ office stated the extension was not granted by its office.
     •   There was no evidence that a verification of unassigned equipment inventory was
         conducted for a Special Agent in Charge.
The prior years’ annual inventories were not effective based upon several of the conditions
identified during our review and described later in this report, including duplicate inventory
records and inaccurate CIECS data. In addition, we reviewed the status of 78 items that were
classified as “pending disposal” on the CIECS as of September 30, 2004, and determined only
1 of these items was accurately categorized. The remaining 77 had been previously disposed of.
Furthermore, separated employees in one of the offices we reviewed still had investigative
equipment assigned to them. One of these agents separated in November 2002. These types of
inaccuracies should have been identified and corrected during the annual inventory.
To better control its equipment and improve the inventory process, the CI function should
consider using bar coding on equipment conducive to such a process. One of the offices in our
review was planning to bar code its investigative equipment. In addition, the Director, ETE,
indicated the possibility of going forward with plans to bar code equipment at the CI function
HQ offsite warehouse. The CI function should analyze the results of these efforts to determine


19
  We considered backup coordinators as all personnel who had the ability to add, change, and delete information in
the CIECS.

                                                                                                          Page 7
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss



the feasibility of bar coding all of its investigative equipment. The use of bar coding can reduce
human error, as well as improve the efficiency of the physical inventory process.
The CI function did not exercise proper separation of duties
According to the Government Accountability Office Standards for Internal Control in the
Federal Government, key duties and responsibilities need to be divided or separated among
different people to reduce the risk of error or fraud. This should include separating the
responsibilities for authorizing transactions, processing and recording transactions, reviewing
transactions, and handling any related assets. No one individual should control all key aspects of
a transaction or event. In addition, the Property Management Guidelines state the CIECS
coordinator and backup coordinators are prohibited from participating in the inventory
verification to maintain proper separation of duties.
At three of the four offices reviewed, we identified the following instances where duties were not
properly separated:
     •   Several property custodians at the CI function HQ office had recordkeeping duties. Not
         only did they have access to the CIECS database, but their permission levels allowed
         them to add records and change information on existing records.
     •   An employee of the CI function Finance section was responsible for purchasing,
         recording, and maintaining custody of enforcement badges and pocket commissions.
     •   Support staff at one office conducted their respective group inventories. According to the
         IRM, an employee may not inventory equipment where he or she is responsible for
         maintaining that inventory.
     •   The CIECS coordinator in one of the CI function field offices maintained custody of the
         keys to the surplus vehicles.
     •   A backup CIECS coordinator in one office conducted the inventory of the lead technical
         agent’s equipment pool and the firearm coordinator’s pool. Another backup coordinator
         at that same office conducted the inventory of one of the groups.
Internal reviews at the three offices noted weaknesses pertaining to separation of duties.
According to an October 2003 review20 of the ETE section, property custodians had access to and
could make changes in the CIECS database. In addition, the Review and Program Evaluations
conducted in May 2002 and April 2004 at two other offices noted weaknesses in the separation
of duties during the performance of equipment inventories.
CI function management needs to ensure the investigative equipment duties are properly
separated to reduce the risk of error or fraud.

20
  This review was requested by the Director and Deputy Director, Operations, Policy, and Support, and was
conducted by an ad hoc team comprised of personnel from the HQ office and various field offices.

                                                                                                        Page 8
                     Weaknesses in the Criminal Investigation Function’s Controls
                         Leave Investigative Equipment Vulnerable to Loss



The CI function did not maintain complete documentation to support equipment disposal
transactions
According to the Standards for Internal Control in the Federal Government, all transactions
should be authorized, clearly documented, and readily available for examination. Control
activities, such as reviewing supporting documentation, help ensure all transactions are
completely and accurately recorded.
Investigative equipment excessed during FY 2004 was not properly authorized and/or supported
The Property Management Guidelines state the disposal of an investigative equipment item can
be made once the item has been offered to other field offices. Local management can approve
the disposals, except the Director, ETE, is required to approve the disposal of all technical agent
equipment; radio equipment; and, undercover, surveillance, and special purpose vehicles.
Equipment that is excessed must be supported by a Report of Excess Property (Standard Form
120).
We judgmentally selected 89 items classified as excessed during FY 2004 and determined there
was either no supporting documentation or the documentation was incomplete for almost
one-half of these items.
                      Table 3: Results of Review of Excessed Equipment


                            Audit Results                 HQ Office      Field Offices       Totals

              Total Number of Items Excessed                 523              200              723
              During FY 2004

              Sample Size                                     25              64               89

              Supporting Documentation Complete21             22              26               48

              Supporting Documentation Incomplete              3              13               16

              No Supporting Documentation                      0              25               25
              Provided


            Source: TIGTA analysis of the CIECS and results of review.




21
  This category includes three HQ and five field office items that were either excessed as a duplicate record or
inaccurately classified as disposed of.

                                                                                                             Page 9
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



Investigative equipment disposed of as lost or stolen was not always properly documented
According to the Property Management Guidelines, any time investigative equipment is lost,
stolen, or damaged a memorandum is prepared by the individual assigned the equipment
documenting the circumstances of the loss. This memorandum is then forwarded to the
employee’s supervisor who determines if the loss was due to negligence.
A Report of Survey (Form 1933) must also be prepared to report equipment that is lost or stolen.
Special Agent in Charge and Director of Field Operations approvals are required for equipment
assigned to the field offices. Division Director approval is required for equipment assigned to
their divisions. All approved Forms 1933 must be forwarded to the Director, ETE. The TIGTA,
Office of Investigations (OI), must be contacted whenever a firearm, badge, or pocket
commission is reported as lost or stolen.
We reviewed a total of 59 items reported as lost or stolen during FYs 2003 and 2004 and
determined the following:
    •   In nine instances, the supporting documentation was incomplete, including the lack of
        the Director of Field Operations’ signature or the lack of a determination for financial
        liability. There was also one instance where a security incident report was located, but
        there was no evidence this report was forwarded for proper approval.
    •   In three of the nine instances, the TIGTA, OI, was not notified, as required, of a lost
        pocket commission, firearm, and belt badge.
    •   In one instance, there was no supporting documentation.
In addition, there were 59 enforcement badges and pocket commissions included as part of the
mass disposal of equipment by the CI function HQ office during February 2004 that were not
forwarded to the TIGTA, OI, as required.
Current CI function procedures did not ensure equipment disposed of was properly supported or
applicable information was properly reported. For instance, annual inventory procedures did not
require the review of supporting documentation for equipment that was excessed, lost, or stolen.
Documentation is needed to ensure all transactions are properly recorded and to ensure
equipment is effectively controlled. Equipment that is recorded on the CIECS as disposed of
without supporting documentation could be an indication of an unauthorized alteration. Also,
badges, pocket commissions, and firearms that are lost or stolen need to be reported to the
TIGTA, OI, to allow for appropriate investigative actions, including entering the information on
national crime databases.




                                                                                            Page 10
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss



The CI function did not properly control equipment loaned by the HQ office
According to the Property Management Guidelines, all loaned equipment must be tracked by the
receiving office; that office must also verify all loaned equipment during the annual inventory
process.
We attempted to physically verify 15 items that were loaned by the CI function HQ office to the
3 field offices in our review and could not locate 5 of these items costing $29,671. These five
items included an enforcement badge, video equipment, and a concealment item used for
surveillance activities. In addition, we selected 20 additional items that were in loaned status
from the CI function HQ office to other field offices to determine if the HQ office verified these
items during the last annual inventory. In six instances, there was no indication the item was
verified during the last annual inventory (FY 2004).
This occurred because procedures were not effective in ensuring equipment in loaned status was
physically verified during the annual inventory process. An item in loaned status would appear
only on the loaner’s (in most instances, the CI function HQ office) Report 1.22 The equipment
would not appear on the Report 1 of the office with physical custody of the item.
CI function management indicated the new CIMIS database should more effectively ensure
loaned equipment is properly verified. The new system now creates a temporary custody
assignment of the loaned item. Both parties should have control and be accountable. The loaned
item should now appear on both the loaner’s and receiving office’s Report 1. Both parties are
responsible for verifying the item during the inventory process.
We agree these new procedures will help ensure equipment in loaned status is physically verified
during the annual inventory process. However, this verification is still dependent on the
inventory procedures practiced at each office.
The CI function is responsible for controlling over 40,000 investigative equipment items costing
approximately $128 million. Unless CI function management takes action to improve the
controls and procedures over this equipment, they will continue to be at risk of losing control of
more investigative equipment.

Recommendations
The Chief, CI, should:
Recommendation 1: Issue a memorandum to applicable CI function personnel
reemphasizing the importance of independently verifying all equipment during the annual
inventory; not relying on oral statements made by the property custodians; physically verifying


22
  This report is generated by the current CIMIS (and was also generated by the CIECS), is used by each office as
the beginning inventory, and serves as the primary reconciliation document.

                                                                                                          Page 11
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



the serial number of each item; ensuring each item is properly recorded on the CIMIS; properly
segregating investigative equipment duties; maintaining supporting documentation for disposed
of items; and notifying the TIGTA, OI, when badges, pocket commissions, or firearms are lost or
stolen.
       Management’s Response: The Chief, CI, agreed with this recommendation, stating
       the results of our audit were discussed and inventory procedures were reemphasized
       during the recent Special Agent in Charge and Assistant Special Agent in Charge
       meeting. A detailed memorandum clarifying the inventory system and the roles and
       responsibilities of all CI function employees will be issued to all CI function personnel,
       and additional guidance on these topics will be provided to all CI function managers.
Recommendation 2: Establish procedures requiring each office to submit the primary
reconciliation document used during the inventory process along with the memorandum that is
submitted to the Director, ETE. These procedures should also require each office to attach a
document listing the personnel that conducted the inventory verifications. This information
should be used by the Director, ETE, in ensuring each item was properly inventoried and an
independent verification was conducted.
       Management’s Response: The Chief, CI, agreed with this recommendation and will
       revise the Property Management Handbook to require reconciliation documents and a list
       of personnel conducting inventories as attachments to the annual certification
       memorandum. In addition, the Investigative Equipment Control (IEC) work group will
       recommend any additional policy and procedure changes necessary.
Recommendation 3: Consider whether the use of bar coding would be an effective method of
controlling the CI function’s investigative equipment. The CI function can assess the viability of
using bar coding nationwide by studying its effectiveness at the one field office in our review
and at the offsite warehouse, if it is implemented.
       Management’s Response: The Chief, CI, agreed with this recommendation, stating
       the use of a bar coding inventory system is currently under review by the CI function and
       the IEC work group will continue to address this area.
Recommendation 4: Establish procedures to periodically review the permissions of those
users with access to the investigative equipment application of the CIMIS to ensure property
custodians and those conducting the inventories have read-only access.
       Management’s Response: The Chief, CI, agreed with this recommendation. The
       IEC work group will determine the appropriate level and frequency of reviews of the
       CIMIS roles and permissions.
Recommendation 5: Establish monitoring procedures to require the review of supporting
documentation to ensure all disposals (including lost or stolen items) are properly conducted and


                                                                                          Page 12
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



consider incorporating procedures requiring each disposal (identified from the CIMIS) to be
analyzed by an independent person as part of the annual inventory process.
       Management’s Response: The Chief, CI, agreed with this recommendation and will
       review all reports of survey and supporting documentation beyond the field level for
       completeness and accuracy. Further disposal review requirements will be considered by
       the IEC work group.


Badges and Pocket Commission Inserts Purchased by the Criminal
Investigation Function Are Not Properly Controlled, Resulting in
Unreliable Data and Missing Pocket Commissions

Our review determined that pocket commission inserts were not always controlled on the CIECS,
as required. As a result, the CI function could not locate 111 pocket commission inserts. In
addition, we identified numerous enforcement and belt badges that had the same identification
number. This weakened the CI function’s ability to properly control the badges. The CI
function must improve the control of its identification media to prevent the loss or theft of pocket
commission inserts and badges. In the hands of an unauthorized person, these items could not
only bring serious discredit and adverse publicity to the IRS but could also be damaging to our
nation’s homeland security.
Each special agent should be issued an enforcement badge together with a belt badge and a
pocket commission containing the special agent’s sequentially numbered insert. The CI function
is responsible for establishing and maintaining necessary controls and records to adequately
govern the issuance, control, and recovery of badges and pocket commissions authorized and
issued to employees under its jurisdiction. Records should be such that they account for all
badges and pocket commissions at all times. The Property Management Guidelines required that
all enforcement badges, belt badges, and pocket commission inserts be recorded in the CIECS.
At the time of our review, the CI function Finance section was responsible for maintaining the
badges and pocket commission inserts.

Pocket commission inserts were not always controlled on the CIECS, resulting in
missing commissions

The CI function purchased 6,000, sequentially numbered, pocket commission inserts
during 1999. We identified 2,850 that were not controlled on the CIECS, as required. CI
function management stated their practice was to record the pocket commission inserts in the
CIECS when they were issued to special agents, rather than spending the time to record the
blocks as received.

                                                                                            Page 13
                     Weaknesses in the Criminal Investigation Function’s Controls
                         Leave Investigative Equipment Vulnerable to Loss



According to CI function personnel, 2,050 of the 2,850 inserts were kept in a locked cabinet.
They said an additional 65 inserts containing the signature of the former Chief, CI, were awaiting
destruction. Of the remaining 735 pocket commission inserts not controlled on the CIECS, the
CI function advised they were able to account for 610, leaving 111 still missing. At the time of
our audit, the Director, ETE, stated the CI function was in the process of issuing new pocket
commission inserts, and the ETE section will be responsible for maintaining the enforcement
badges and pocket commissions in the future.
In the response to this report, the Chief, CI, acknowledged that control over identification media
is critical. CI function management indicated they have located all but 4 of the 111 missing
pocket commissions. Further, they believe, based upon available documentation and statements
from HQ office and field office personnel, it is very likely that all unissued and inactive pocket
commissions were destroyed. CI function management also noted there is no evidence to
suggest that any of the pocket commissions were unknowingly taken outside the agency or
misused in any way. Therefore, they are confident the four pocket commissions missing from
the inventory system do not present a substantial risk to the agency or the country. In this day
and age of identity theft, we believe there is a risk associated with the inability to account for the
location of even one pocket commission.

Enforcement badges and belt badges with the same identification numbers
weaken accountability

We identified numerous enforcement and belt badges that had the same identification numbers.
According to the CIECS data, there were 162 enforcement badges and 489 belt badges where at
least 2 of each type had the same number. There are 12 instances where as many as 4 special
agents have the same belt badge number and another 29 instances where there were at least 4 of
the same belt badge number; however, not all of these were assigned to a special agent.
According to CI function management, the field offices were previously responsible for
purchasing and issuing the enforcement and belt badges. In some instances, the sequences of
badge numbers were the same.
Enforcement badges and belt badges with the same identification numbers weaken the controls
for accountability of these items.23 The CI function should ensure each special agent has unique
enforcement and belt badge identification numbers.



23
  We recognize that, in the event of a lost or stolen badge, the CI function eventually would be able to determine to
whom it belonged through either canvassing each agent who was assigned the number or self-reporting by the agent
to whom the lost or stolen badge belonged. However, accountability is more effective if all badge numbers are
unique, especially if a claim of potential misconduct is made against an agent and the only identifier was the badge
number.

                                                                                                            Page 14
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss




Recommendations
The Chief, CI, should:
Recommendation 6: Ensure all pocket commissions are properly controlled on the CIMIS,
with the following exception. The blocks of 2,050 pocket commission inserts currently stored at
the CI function HQ office should be promptly destroyed when the new pocket commission
inserts are issued. Prior to their destruction, an inventory should be taken to ensure each
commission is properly accounted for and documented.
       Management’s Response: The Chief, CI, agreed with this recommendation,
       indicating the CI function is issuing new enforcement commissions and prior revisions
       will be destroyed. The Chief, CI, acknowledged that control over identification media is
       critical. CI function management indicated they have located all but 4 of the 111 missing
       pocket commissions. Further, they believe, based upon available documentation and
       statements from HQ office and field office personnel, it is very likely that all unissued
       and inactive pocket commissions were destroyed. CI function management also noted
       there is no evidence to suggest that any of the pocket commissions were unknowingly
       taken outside the agency or misused in any way. Therefore, they are confident the four
       pocket commissions missing from the inventory system do not present a substantial risk
       to the agency or the country.
Office of Audit Comment: We still believe there is a risk associated with the 111 missing
pocket commissions because the CI function indicated these were resolved primarily by relying
on statements made by CI function personnel and not through supporting documentation. Also,
we continue to believe any missing law enforcement identifying credential, in the hands of an
unscrupulous person, presents an unacceptably high risk that it could be misused to the detriment
of national security.
Recommendation 7: Ensure all missing pocket commissions are referred to the TIGTA, OI.
       Management’s Response: The Chief, CI, agreed with this recommendation and will
       ensure all pocket commissions suspected of loss and/or theft are reported to the
       TIGTA, OI.
Recommendation 8: Determine if the current supply of belt and enforcement badges is
sufficient to provide each special agent with a unique belt and enforcement badge identification
number.
       Management’s Response: The Chief, CI, agreed with this recommendation and will
       issue uniquely serial-numbered enforcement/belt badges as necessary to ensure no
       duplicate numbers exist among the special agents. New belt badges will be acquired and
       issued containing identification numbers that correspond with each special agent’s
       enforcement badge. The ETE section will collect and properly dispose of excess badges.
                                                                                          Page 15
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss




The Criminal Investigation Equipment Control System Was Inaccurate
and Incomplete

According to the Property Management Guidelines, the field offices are responsible for
maintaining an accurate record of investigative equipment. Any management information
system should readily provide CI function management with accurate information about their
equipment and operations. We determined:
   •   Investigative equipment physically verified contained inaccurate information on the
       CIECS.
   •   Items selected for verification from the “floor” were not recorded on the CIECS.
   •   Equipment purchased during FY 2003 was not always recorded on the CIECS.
   •   Duplicate records, and records where serial numbers had been altered, were contained in
       the CIECS.

Investigative equipment physically verified contained inaccurate information on
the CIECS

Of the 700 items in our original sample, we were able to verify 621. However, 81 of the
621 contained 1 of the following types of errors:
   •   Eleven items with inaccurate serial numbers.
   •   Fifty-eight items with inaccurate model numbers.
   •   Seven items with inaccurate assignment locations (four of these were firearms).
   •   Five items that were properly disposed of but were still listed on the CIECS as active
       (one was a firearm).
Incorrect equipment-identifying information in the CIECS makes the physical verification
process more difficult for CI function personnel.

Items selected for verification from the “floor” were not recorded on the CIECS

We also judgmentally selected 118 investigative equipment items, including 21 vehicles, during
our CI function HQ office and field office verification testing and traced the items to determine if
they were recorded and controlled on the CIECS.

                                                                                            Page 16
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss



     •   Ten items were not controlled on the CIECS as required. These items included
         three hand-held radios, two secured fax machines, a freeze-frame video recorder, a video
         cassette recorder, a concealment device used in undercover operations, a playback
         monitor, and a portable receiver. The estimated cost of these items was approximately
         $25,460.
     •   Five items were incorrectly controlled on the CIECS. These items were controlled on the
         CIECS by the “kit”24 container housing the equipment. According to the Property
         Management Guidelines, the serial number of the main component of each “kit” should
         have been recorded in the CIECS to control the equipment.
     •   Three items had inaccurate assignment locations, according to the CIECS.
These items were at risk of loss because they were not controlled or not correctly controlled on
the CIECS. In addition, CI management could not rely on the information reports generated
from the CIECS because they were incomplete.

Equipment purchased during FY 2003 was not always recorded on the CIECS

We identified 249 investigative equipment purchases made by the CI function HQ office during
FY 2003 from procurement documentation25 to determine if the items were properly controlled
on the CIECS. Over 18 percent (46 of 249) of the equipment purchases, with an acquisition cost
of about $116,221, were not controlled on the CIECS. These items included secured fax
machines, telephones, safes, and video equipment. This occurred because procedures current at
the time of our review did not ensure all investigative equipment purchased by the CI function
HQ office was entered into the CIECS. Equipment purchased as part of a standard model (for
example, a hand-held radio is part of the special agent’s model) did not have to be approved by
the Director, ETE. The ETE section would only be aware of equipment shipped directly to the
field by the manufacturer (known as being “drop shipped”) when a copy of the packing slip was
provided to the ETE section upon receipt of the equipment. There were no procedures in place
to verify that investigative equipment purchased and drop shipped to the field had been entered
into the CIECS.




24
   Assembled kits consist of related equipment components that are used collectively as one unit. Examples include
surveillance vans, camera kits, and radio repeaters.
25
   This documentation included purchase orders, credit card statements, and various receipt documentation for the
purchase of equipment from financial accounting sub-object codes 3184 (Capitalized Radio Equipment) and 3185
(Capitalized Criminal Investigative Equipment). However, our review was hampered because some of the
documentation was incomplete. For example, many of the credit card statements did not contain related
documentation such as purchase orders and corresponding evidence of receipt.

                                                                                                          Page 17
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



An internal review of the ETE section conducted in October 2003 also noted that no validation of
drop shipped equipment was being performed. The review noted much of the investigative
equipment was purchased and shipped directly to the field from the manufacturers.
We provided the results of our analysis to the CI function. CI function management provided the
following response to the 46 investigative equipment items we could not locate:
   •   For 26 of the items, they were taking the necessary steps to add the equipment
       information to the CIMIS.
   •   A total of 11 items were radio components that did not have serial numbers and were
       purchased to replace components that were broken or damaged. While the purchase price
       may have been in excess of $500, these items should not have been entered on the CIMIS
       because they were part of a “kit.”
   •   A total of five of the equipment items were safes and shredders. The CI function
       indicated these items were not required to be entered into the CIECS. (However, our
       review of CIECS information identified similar safes and shredders that were controlled
       on the system. A determination should be made to either add or remove these types of
       items from the CIMIS, consistent with Property Management Guidelines.)
   •   In four instances, supporting documentation could not be located to determine if the
       equipment should have been entered into the CIECS.
These items were also at risk of loss because they were not controlled on the CIECS. In
addition, CI function management could not rely on the information reports generated from the
CIECS because they were incomplete.

Duplicate records, and records where serial numbers had been altered, were
contained in the CIECS

The serial number on the CIECS is the equipment’s principal identifier and is used by the
CI function during the inventory process to verify the equipment. We identified numerous
investigative equipment records where the serial numbers were altered without detection. The
CIECS permission levels allowed changes to the serial number, and there was no audit trail to
identify who made the changes. As a result, the CI function lost control of several items, and
1 firearm went unrecorded on the CIECS for 7 to 11 months. In addition, we identified duplicate
equipment records in the CIECS because the System did not prevent the creation of duplicate
records.
Serial numbers were altered on the CIECS, resulting in equipment left uncontrolled
At 1 of the field offices in our review, we identified 12 instances where the serial number of a
CIECS record was altered. We believe this occurred in response to the results of the annual

                                                                                            Page 18
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



inventory conducted in 2004. When changes in the assignments of investigative equipment were
noted, the CIECS coordinator changed the serial numbers of the records instead of the employee
assignments. The records that were altered controlled various equipment, including a firearm,
pocket commissions, and a belt badge.
The firearm was returned to the firearms coordinator in March 2004 with a broken frame. We
concluded that sometime after that, the CIECS coordinator altered the serial number instead of
changing the assignment. We believe the firearm went unrecorded on the CIECS for 7 to
11 months since it was not on our download of CIECS information dated September 30, 2004. It
did appear on our February 3, 2005, download as being assigned to the firearms coordinator. We
physically verified the firearm at the office during fieldwork.
The 12 instances also included 8 pocket commissions and 1 belt badge where serial numbers
were altered. We were unable to verify these commissions at the field office. The office
indicated these items were most likely destroyed.
We conducted an analysis of the CIECS information and identified an additional 83 instances
where serial numbers were altered in some way between September 30, 2004, and
February 3, 2005. Most of these were minor corrections; however, there were 12 instances
where the serial numbers were noticeably different. One of these items was a shotgun assigned
to an office not included in our review. That office indicated the serial number was changed
because the previous number was erroneously entered for that weapon.
CI function management stated there are legitimate business reasons for changing serial numbers
and, like the CIECS, the new CIMIS will allow users to change this information. However, the
new CIMIS has an audit trail feature that records information about these changes. CI function
management also advised us reports should be available that will show these changes. The CI
function’s Security Officer is responsible for reviewing these reports.
While we agree the use of an audit trail will help the CI function eventually detect inappropriate
changes to investigative equipment information, changes may go undetected until audit trail
reports are generated. Since the serial number is the main equipment identifier, we believe the
ability to make changes to this information should be limited.
Duplicate records were created in the CIECS, resulting in unreliable data
As previously discussed, the existence of duplicate records should have been identified during
the annual inventory process. Our analysis of the CIECS data identified 95 instances where there
were duplicate records for an investigative equipment item. In 49 instances, the same item was
assigned to 2 different offices.
This occurred because the CIECS did not prevent duplicate records from being created. CI
function personnel indicated the new system will prevent the creation of a duplicate record if the
record has the same information in all of the following fields:
   •   Serial number.

                                                                                           Page 19
                   Weaknesses in the Criminal Investigation Function’s Controls
                       Leave Investigative Equipment Vulnerable to Loss



   •   Model Number.
   •   Manufacturer.
   •   Category.
   •   Subcategory.
We agree this will assist in preventing some duplicate records from being created. However, if
information such as the model number is incorrect, a duplicate could still be created.


Recommendations
The Chief, CI, should:
Recommendation 9: Establish procedures to ensure all investigative equipment purchased is
properly controlled on the CIMIS. For example, the ETE section should be notified by the
CI function Finance section at the time investigative equipment is procured.
       Management’s Response: The Chief, CI, agreed with this recommendation, stating
       current procedures require the Finance section to notify the ETE section at the time
       investigative equipment is procured. The IEC work group will evaluate the current
       procedures and determine/recommend necessary enhancements.
Recommendation 10: Resolve all instances where the serial numbers were changed based on
information provided by the TIGTA during our review.
       Management’s Response: The Chief, CI, agreed with this recommendation and will
       resolve the serial number changes identified during the audit. Additionally, the IEC work
       group will review the issue of serial number changes and recommend appropriate policy
       and procedural changes.
Recommendation 11: Establish procedures to ensure changes to serial number information
in the CIMIS are appropriate. The ability to change a serial number should be limited to
personnel at the CI function HQ office or each Director of Field Operations. A request
documenting the reason for changing a serial number should be sent to those personnel.
       Management’s Response: The Chief, CI, agreed with this recommendation and will
       update the necessary policies and procedures once determined by the IEC work group.
Recommendation 12: Establish procedures to identify duplicate records in the CIMIS. A
report listing all items with duplicate serial numbers should be generated periodically and
provided to the Director, ETE, for review.
       Management’s Response: The Chief, CI, agreed with this recommendation and will
       create a report to identify equipment records containing exactly matching serial numbers.

                                                                                         Page 20
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss



        The IEC work group will make recommendations concerning the level at which and the
        frequency with which this report should be reviewed.


Physical Security Controls Need to Be Improved to Reduce the Risk
of Unauthorized and/or Undetected Access to Investigative
Equipment

Our review of the physical security controls at the four offices26 identified weaknesses that left
equipment vulnerable to theft or loss. This occurred because management did not ensure
physical security controls were properly maintained. This included not ensuring functional
security reviews27 were conducted, as required. In addition, the procedure for storing
investigative equipment at the HQ offsite warehouse did not ensure equipment was adequately
controlled. As a result, investigative equipment, such as firearms, was not properly secured.
According to the Standards for Internal Control in the Federal Government, an agency must
establish physical control to secure and safeguard assets. Access to resources and records should
be limited to authorized individuals, and accountability for their custody and use should be
assigned and maintained.
In addition, the IRM states the safeguarding of investigative equipment (other than firearms)
carries a “Normal Security” designation, signifying that equipment should be maintained in
either a locked perimeter area, a locked interior area, or a locked container. Firearms, when not
in use, should be protected as follows: one to four firearms - security container; five or more
firearms - safe or vault. Access to a locked area, room, or container can be controlled only if the
key, keycard, or combination is controlled.
The number of keys or knowledge of the combinations to a secured area must be kept to the
absolute minimum. A Custody Receipt for Government Property (Form 1930) should be used to
record the issuance of all keys (including keycards for electronic access controls systems).
Combination locks, which rely on something the individual knows, have been used in the past
for controlling access. If the combinations are widely disseminated and not changed frequently,
unauthorized accesses may occur and may not be easily detected. Combinations must be



26
   Each office consisted of multiple sites where we reviewed the physical security controls. For instance, we also
reviewed the controls at the Laguna Niguel, California, site, which is part of the Los Angeles field office.
27
   According to the IRM, functional security reviews measure adherence to security requirements and procedures
that apply to each manager’s office or functional area. These reviews do not represent technical assessments of the
security program but are a means to ensure the existing security procedures and requirements are in place on a
day-to-day basis. First-line managers, on an annual basis, will conduct these reviews of areas for which they are
responsible. Upper levels of management are responsible for reviews of their immediate work areas.

                                                                                                           Page 21
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



changed at least once a year, or when a person who knows the combination terminates
employment, and documentation of these changes should be maintained.
We reviewed the physical security controls at the four offices and identified the following
weaknesses:
   •   Combinations for keypads allowing access to investigative equipment storage areas were
       not changed for at least 1 year, as required. CI function personnel could not recall when
       the combinations were last changed (two offices).
   •   Combinations to the firearms safes or vaults were not changed for at least 1 year; 1 of the
       combinations had not been changed since 1996. CI function personnel could not recall
       when the other combinations were last changed (two offices).
   •   A safe storing several shotguns was broken (one office).
   •   Control custody receipts or control logs were not maintained for keys allowing access to
       investigative equipment and firearms storage areas (three offices).
   •   The new firearms were not stored in a safe or vault. Instead, they were stored in the
       firearms storage area. The office cited a lack of space as a reason for not storing the
       firearms in a safe or vault; however, accessibility to this area was unknown because
       custody receipts indicating who had keys allowing access to this area were not
       maintained (one office).
   •   The CIECS coordinator and several computer investigative specialists had access to a
       garage storage area housing various radio and video equipment (one office).
   •   Several CI function personnel, including executives and an individual who was
       previously assigned temporarily, had access to the CI function HQ offsite warehouse.
Further, we could not find evidence the functional security reviews were performed at the four
offices in our review during FY 2004. One office indicated a review was conducted; however,
the report was not provided. When properly conducted, functional security reviews will help
ensure security standards are met. If these security controls are not effective, investigative
equipment is vulnerable to risk of loss or unauthorized use.
In addition to our physical security concerns, the current environment for storing equipment at
the CI function HQ offsite warehouse concerns us. This facility is used to store equipment
purchased by the CI function HQ office until it is sent to the field offices for use. According to
the CIECS, as of February 3, 2005, a total of 1,834 investigative equipment items with an
acquisition cost exceeding $4 million was assigned to the warehouse. This included radios,
video equipment, and firearms. The CI function advised us these firearms were never physically
stored at the warehouse. They were erroneously recorded as assigned to the warehouse on the
CIECS.


                                                                                              Page 22
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss



As previously mentioned, the CI function HQ office wrote off, or was prepared to write off as
lost, a total of 230 items during FYs 2004 and 2005. In addition, we were unable to verify
24 items assigned to the warehouse. We believe the disarray observed at this offsite warehouse
facility contributed to the loss of equipment. Items were haphazardly stored in multiple locations
throughout the facility, and some items were obscured from view. Also, the current procedure
for relying on one’s memory to recall where equipment is located is not proper, effective, or
efficient.
Properly managing the storage facility for investigative equipment is necessary to ensure
equipment is adequately controlled. This can be accomplished by developing a layout or schema
for storing investigative equipment that will allow the CI function to more easily track and locate
items.

Recommendations
The Chief, CI, should:
Recommendation 13: Establish procedures to ensure functional security reviews of
investigative equipment and firearms storage areas are conducted on an annual basis.
       Management’s Response: The Chief, CI, agreed with this recommendation and will
       take the necessary steps to ensure functional security reviews of investigative equipment
       and firearms storage areas are conducted on an annual basis throughout the CI function.
       The IEC work group will look at this area and make the necessary recommendations for
       improvement. Additionally, the Review and Program Evaluations will continue to check
       functional security review certifications for completeness, accuracy, and timeliness
       during periodic reviews, paying particular attention to the components of the
       certifications addressed in this report.
Recommendation 14: Restrict access to investigative equipment storage areas to only those
personnel responsible for maintaining the equipment. This includes limiting access to the
CI function HQ offsite warehouse to only those CI function personnel with a requisite need.
       Management’s Response: The Chief, CI, agreed with this recommendation and will
       place renewed emphasis on restricting access to investigative equipment to necessary
       personnel only. The Director, ETE, will monitor warehouse card key access assignments
       to ensure only necessary personnel have access. The IEC work group will make
       recommendations for further procedural improvements as needed.
Recommendation 15: Establish procedures to ensure investigative equipment assigned to the
CI function HQ offsite warehouse is effectively stored. This should include the use of a layout
or schema to document where equipment is located at the site. The location should then be noted
in the CIMIS database.


                                                                                           Page 23
         Weaknesses in the Criminal Investigation Function’s Controls
             Leave Investigative Equipment Vulnerable to Loss



Management’s Response: The Chief, CI, agreed with this recommendation, stating
the IEC work group will scrutinize the operations of the warehouse facility and make
necessary recommendations to ensure the CI function implements a sound and secure
inventory tracking system for all investigative equipment and supplies stored at that
facility.




                                                                               Page 24
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss



                                                                                                 Appendix I


         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether controls and procedures are
effective in ensuring investigative equipment is adequately safeguarded against waste and loss.
To accomplish our objective, we obtained extracts from the Criminal Investigation Equipment
Control System (CIECS)1 for the periods ending September 30, 2004, and February 3, 2005.
One of the purposes of our audit was to verify the accuracy of the data maintained in the system.
Specifically, we:
I.      Evaluated and discussed procedures for ensuring unassigned investigative equipment was
        adequately stored and safeguarded.
II.     Evaluated policies and procedures to ensure investigative equipment duties were
        adequately separated. We also reviewed the permissions of those employees with access
        to the CIECS.
III.    Determined whether the inventory of investigative equipment is adequately controlled by
        the Criminal Investigation (CI) function on its equipment information system.
        A. Analyzed the CIECS as of September 30, 2004, and identified 42,434 investigative
           equipment items with an acquisition cost of approximately $128 million. We also
           reviewed disposed of equipment information including items noted as lost or stolen.
           The CI function Headquarters (HQ) offices in Washington, D.C.; Chicago, Illinois;
           and Forestville, Maryland, 2 and the CI function field offices located in
           Chicago, Illinois; Houston, Texas; and Los Angeles, California, were judgmentally
           selected based upon factors such as the total number and cost of investigative
           equipment currently assigned to each office, the total number of items reported as lost
           or stolen since January 2002, and the total number of items with a pending disposal
           status. We also considered the geographic location of the offices.
        B. Conducted a physical verification of investigative equipment, excluding vehicles,
           listed on the CIECS as assigned to the four offices in our review, as of
           September 30, 2004.



1
  The CIECS is a standardized nationwide online investigative equipment inventory system that allows management
to track where its investigative equipment and accessories are located, to track to whom it is assigned, and to
generate reports. It also tracks equipment loaned outside of the CI function and the disposal of equipment.
2
  We performed fieldwork at these three offices within the Headquarters office. Unless otherwise noted, references
made in this report to the HQ office reflect the results of our fieldwork at these three offices.

                                                                                                         Page 25
                    Weaknesses in the Criminal Investigation Function’s Controls
                        Leave Investigative Equipment Vulnerable to Loss



             1. Analyzed the CIECS, for the period ending September 30, 2004, and identified
                investigative equipment from the following equipment categories: Firearms
                (Category Number 10), Audio (20), Video (21), Photographic (23),
                Telecommunication (25), Optical (26), Radio (60), Tracking (70), and select
                subcategories from Miscellaneous Investigative Equipment (28).
             2. Randomly selected 200 of 2,518 investigative equipment items (from the
                categories listed in Step III.B.1.) assigned to the CI function HQ offices,
                specifically the Equipment and Technology Evaluation section. We also selected
                50 of the 1,853 firearms. For the 3 field offices, we randomly selected a total of
                375 of 2,785 investigative equipment items and 75 of the 691 firearms. We used
                random nonstatistical sampling techniques because we determined statistical
                sampling techniques would have been cost prohibitive as well as an inefficient use
                of our resources.
             3. Physically verified 621 of the 700 investigative equipment items at the 4 offices.
                We provided a listing of those items we could not verify to each of the offices.
        C. Evaluated each office’s inventory procedures and determined whether an annual
           inventory of investigative equipment was properly performed in Fiscal
           Year (FY) 2004.
             Note: Based upon our initial results, we expanded testing and identified instances
             where the serial numbers were changed in the CIECS database by comparing the
             September 30, 2004, and February 3, 2005, database information. We conducted
             appropriate follow-up, such as verifying equipment.
        D. Obtained procurement documentation3 for 249 investigative equipment purchases
           (excluding vehicles and body armor) made by the CI function during FY 2003. We
           then queried the February 3, 2005, CIECS information and determined whether the
           equipment was recorded.
             Note: Based upon our initial results, we expanded testing to include all pocket
             commission inserts to determine whether they were adequately controlled on the
             CIECS. We obtained documentation from the CI function Finance section noting the
             purchase of 6,000 sequentially numbered pocket commission inserts. We queried the
             February 3, 2005, CIECS data and identified 2,850 pocket commission inserts that
             were not properly controlled. We coordinated efforts with the CI function HQ office
             to account for these pocket commission inserts.

3
 This documentation included purchase orders, credit card statements, and various receipt documentation for the
purchase of equipment from financial accounting sub-object codes 3184 (Capitalized Radio Equipment) and 3185
(Capitalized Criminal Investigative Equipment). However, our review was hampered because some of the
documentation was incomplete. For example, many of the credit card statements did not contain related
documentation such as purchase orders and corresponding evidence of receipt.

                                                                                                         Page 26
          Weaknesses in the Criminal Investigation Function’s Controls
              Leave Investigative Equipment Vulnerable to Loss



E. Selected a judgmental sample of 89 of 723 investigative equipment items, including
   firearms, that were excessed during FY 2004 for the offices selected in our review
   and determined whether each was properly approved and documented. We also
   judgmentally selected 78 of 547 investigative equipment items classified in pending
   disposal status, for at least 1 year, and determined whether the pending status was
   accurate. We used this sampling methodology because we did not intend to project
   our results to the entire universe.
F. Judgmentally selected 59 of 240 investigative equipment items that were listed on the
   CIECS as lost or stolen since January 2002 and determined whether each was
   properly approved and documented and whether they were referred to the Treasury
   Inspector General for Tax Administration, Office of Investigations, when necessary.
   We used this sampling methodology because we did not intend to project our results
   to the entire universe.
G. Evaluated and discussed procedures pertaining to equipment loaned by CI function
   offices. We selected all 15 investigative equipment items listed on the CIECS as
   loaned by the CI function HQ office to the 3 field offices in our review and verified
   the existence of this equipment.
H. Randomly selected from the “floor” a total of 118 investigative equipment items,
   including 21 vehicles, from the 4 offices and determined whether the equipment was
   properly controlled on the CIECS. We used this sampling methodology because we
   could not project results to an unknown universe.
I. Verified the firearm, enforcement badge, belt badge, and pocket commission noted on
   the Custody Receipt for Government Property (Form 1930) for a total of 76 special
   agents at the 3 CI function field offices in our review. In addition, we selected a
   sample of 11 special agents that separated during FY 2004 from the 3 CI function
   field offices and determined whether the equipment on their Forms 1930 was properly
   returned.
J. Analyzed the February 3, 2005, CIECS information and identified all CIECS records
   for equipment in active status that contained duplicate serial numbers. We then
   manually reviewed the resulting information and identified those instances where
   there was a duplicate record for one investigative equipment item.




                                                                                   Page 27
                Weaknesses in the Criminal Investigation Function’s Controls
                    Leave Investigative Equipment Vulnerable to Loss



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Jeffrey K. Jones, Lead Auditor
James S. Mills, Jr., Senior Auditor
Janice A. Murphy, Senior Auditor




                                                                                      Page 28
                Weaknesses in the Criminal Investigation Function’s Controls
                    Leave Investigative Equipment Vulnerable to Loss



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Equipment and Technology Evaluation, Criminal Investigation SE:CI:OPS:ETE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                      Page 29
                      Weaknesses in the Criminal Investigation Function’s Controls
                          Leave Investigative Equipment Vulnerable to Loss



                                                                                   Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:

      •    Protection of Resources – Actual; 70 investigative equipment items costing $241,718
           could not be located or positively identified (see page 4).

Methodology Used to Measure the Reported Benefit:

We randomly selected 700 investigative equipment items, including 125 firearms, to physically
verify. We could not locate or find support for 70 items. The items we could not verify included
audio and video equipment and secured fax machines. These items had an acquisition cost of
$241,718.1

Type and Value of Outcome Measure:

      •    Protection of Resources – Actual; 2,850 pocket commission inserts were not properly
           controlled on the Criminal Investigation Equipment Inventory System (CIECS). As a
           result, the Criminal Investigation (CI) function could not locate 111 pocket commission
           inserts (see page 13).

Methodology Used to Measure the Reported Benefit:

We conducted an analysis of the CIECS to determine if the pocket commissions were
numerically sequenced. We initially identified over 400 missing numbers. We subsequently
obtained the purchasing information relating to the numeric sequence of the pocket commissions
purchased by the CI function. We compared this information to the listing of pocket


1
    These items were purchased between January 1983 and April 2003.

                                                                                            Page 30
                   Weaknesses in the Criminal Investigation Function’s Controls
                       Leave Investigative Equipment Vulnerable to Loss



commissions recorded in the CIECS and identified 2,8502 pocket commission inserts that were
not properly controlled on the CIECS, as required. The CI function could not locate 111 pocket
commissions.

Type and Value of Outcome Measure:

    •   Protection of Resources – Actual; 10 investigative equipment items, with an acquisition
        cost of about $25,460, were not controlled on the CIECS, as required (see page 16).

Methodology Used to Measure the Reported Benefit:

We judgmentally selected 118 investigative equipment items to determine if the items were
properly controlled on the CIECS. We identified 10 items that were not controlled on the
CIECS, as required. These items had an acquisition cost of approximately $25,460 and consisted
of various radio and video equipment.

Type and Value of Outcome Measure:

    •   Protection of Resources – Actual; 46 investigative equipment items purchased by the
        CI function during Fiscal Year 2003 were not controlled on the CIECS, as required
        (see page 16).

Methodology Used to Measure the Reported Benefit:

We judgmentally selected a sample of 249 investigative equipment purchases made by the
CI function during Fiscal Year 2003 using procurement documentation, such as purchase orders,
credit card statements, and various receipts. We subsequently queried the CIECS to determine if
these items were properly controlled. We determined that 46 of these purchases were not
properly controlled on the CIECS. These items cost approximately $116,221 and included
secured fax machines, telephones, safes, and video equipment.




2
 Of these pocket commissions, 2,115 belong to numerically sequenced blocks and were maintained in a locked
cabinet at the CI function Headquarters office; 65 of these are awaiting destruction.

                                                                                                      Page 31
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss




Type and Value of Outcome Measure:

   •   Reliability of Information – Actual; 81 (of the 621) investigative equipment items
       physically verified during testing contained inaccurate information on the CIECS,
       including inaccurate serial numbers, assignment locations, and equipment status.
       Additionally, 8 (of 118) items identified at the 4 offices were not accurately controlled
       (see page 16).

Methodology Used to Measure the Reported Benefit:

We captured certain equipment-identifying information (e.g., serial number, model number, and
location) recorded in the CIECS for each of the 700 investigative equipment items we sampled
and verified that information to the particular equipment item. In addition, we judgmentally
selected 118 investigative equipment items to determine if the items were properly controlled on
the CIECS. We identified eight items that were not controlled accurately on the CIECS.

Type and Value of Outcome Measure:

   •   Reliability of Information – Actual; 95 instances where there were duplicate records for
       an investigative equipment item (see page 16).

Methodology Used to Measure the Reported Benefit:

We conducted an analysis of the data obtained from the CIECS dated February 3, 2005, and
identified all CIECS records of equipment that contained the same serial number. We selected
only those equipment records where the CIECS indicated the items were still in active status.
We manually reviewed the resulting information and identified those instances where there was a
duplicate record for one investigative equipment item.

Type and Value of Outcome Measure:

   •   Reliability of Information – Actual; 95 instances where the serial number of a CIECS
       record was altered, resulting in the loss of 8 pocket commissions and 1 belt badge
       (see page 16).



                                                                                           Page 32
                 Weaknesses in the Criminal Investigation Function’s Controls
                     Leave Investigative Equipment Vulnerable to Loss




Methodology Used to Measure the Reported Benefit:

We reviewed the Fiscal Year 2004 inventory supporting documentation at 1 office and identified
12 instances where a change in the assignment of equipment was noted. Our further analysis,
including a review of CIECS data, determined in these 12 instances the serial number instead of
the assignment number was changed in the CIECS. We then conducted an analysis of the data
obtained from the CIECS dated September 30, 2004, and February 3, 2005. We compared the
serial numbers of the CIECS records from the September 30, 2004, information to the serial
numbers for those same records from the February 3, 2005, information to identify those records
where the serial numbers had been changed.




                                                                                        Page 33
    Weaknesses in the Criminal Investigation Function’s Controls
        Leave Investigative Equipment Vulnerable to Loss



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 34
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 35
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 36
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 37
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 38
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 39
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 40
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 41
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 42
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 43
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 44
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 45
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 46
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 47
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 48
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 49
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 50
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 51
Weaknesses in the Criminal Investigation Function’s Controls
    Leave Investigative Equipment Vulnerable to Loss




                                                        Page 52
